4o~
I

C@QCKLE

; E-Mail Address:
egal
L 8 Brie fs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214 Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No.

LORI RODRIGUEZ; SECOND AMENDMENT FOUNDATION,
INC.; and CALIFORNIA GUN RIGHTS FOUNDATION,
Petitioners,

Vv.
CITY OF SAN JOSE; SAN JOSE POLICE DEPARTMENT; and
STEVEN VALENTINE,
Respondents.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 21st day of February, 2020, send out
from Omaha, NE | package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar
days. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:

ERIK S. JAFFE DONALD E.J. KILMER, JR.
GENE C. SCHAERR (Counsel of Record)
SCHAERR | JAFFE LLP LAW OFFICES OF
1717 K Street, NW DONALD KILMER, P.C.
Washington, DC 20006 14085 Silver Ridge Road
(202) 787-1060 Caldwell, Idaho 83607
ejaffe@schaerr-jaffe.com (408) 264-8489

Don@DKLawOffice.com

Of Counsel

Subscribed and sworn to before me this 21st day of February, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary \
ane , CCM Quidoawh
My Commission Expires Nov 24, 2020 fi

Notary Public Affiant 39531

 

 
Malgorzata Laskowska, Deputy City Attorney
Direct: 408-535-1900

Matthew Wade Pritchard, Deputy City Attorney
Direct: 408-535-1205

San Jose City Attorney's Office

16th Floor

200 E. Santa Clara Street

San Jose, CA 95113-1905
Margo.Laskowska@sanjoseca.gov
Matthew.Pritchard@sanjoseca.gov
